No. 20-

IN THE

Ouprente Court of tie tiniteb ilstate.
JOHNSON & JOHNSON and
JOHNSON & JOHNSON CONSUMER INC.,
Petitioners,
v.
GAIL L. INGHAM, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
Missouri Court of Appeals for the
Eastern District

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,949 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 2, 2021.

Colin Casey Hbgan
Wilson-Epes Printing Co., Inc.

